         U.S. Department of Energy
         Office of Inspector General
         Office of Audit Services




Audit Report

W76 Life Extension Project




DOE/IG-0729                            May 2006
REPORT ON W76 LIFE EXTENSION PROJECT


TABLE OF
CONTENTS

W76 Life Extension Project

Details of Finding…………………………………………………………………………1

Recommendations……………….………………………………………………………..6

Comments…………………………….……………………………………….………….7


Appendices

1. Objective, Scope, and Methodology………………………………………………….9

2. Prior Reports...……………………………………………………………………….11

3. Management Comments……………………………………………………………..12
W76 Life Extension Project


Refurbishment Project   The National Nuclear Security Administration (NNSA) is
Schedule, Scope, and    at risk of not achieving the first production unit for the
Cost                    W76 refurbishment within its intended scope, schedule, and
                        cost parameters. In particular, we found that NNSA
                        (1) reduced the scope of activities planned to support final
                        design and production decisions; (2) delayed tests and
                        production related milestones; and, (3) could not reconcile
                        cost variances to supporting project documentation.

                                                   Scope

                        The scope of activities required for the Final Design
                        Review (FDR) was reduced. According to project planning
                        documentation approved by NNSA in February 2004,
                        various component tests, including six hydrodynamic
                        (hydrotest) and nine intermediate-scale tests, were to be
                        completed prior to performing the FDR. The design
                        validation information obtained from these tests is
                        significant because the refurbishment production processes
                        are set up based upon the design approved by the FDR.
                        Despite the importance of these activities, NNSA and the
                        Department of Defense accepted the potential risk and
                        conducted the FDR in May 2005, even though two of the
                        six planned hydrotests, intended to ensure the primary stage
                        of the weapon will perform as designed, had not been
                        completed. We noted that one planned hydrotest was
                        eliminated entirely and the other delayed until June 2005.
                        In addition, four of the nine intermediate-scale tests,
                        designed to characterize materials, were not completed
                        before the FDR. The remaining intermediate-scale tests
                        were completed by April 2006 and the results of those tests
                        are currently being evaluated.

                        In commenting on a draft of this report, management
                        pointed out that the June 2005 hydrotest had excellent
                        results; therefore, management concluded that there are no
                        additional risks from the delayed test dates or the reduced
                        number of tests. However, there is no way to be certain
                        that data from those tests that were eliminated would not
                        have impacted the refurbishment effort.




Page 1                                                          Details of Finding
         Project officials reduced the scope of the purification
         process material testing, an activity needed to support full-
         scale production decisions. To meet design specifications,
         one of the materials used in W76 components must be
         processed to a required purity level. According to planning
         documents, seven purification tests are needed to evaluate
         whether the purification process will consistently produce
         material that meets weapon design specifications. Because
         the Y-12 National Security Complex testing facility
         experienced schedule delays, only four of the seven
         planned tests can be performed by the first production unit
         (FPU) date. While one of these tests could produce
         material at the required purity level, NNSA will lack the
         assurance it wants that the purification process will
         consistently produce material that meets specifications.
         Nonetheless, to avoid further delays, project managers
         agreed to produce the first refurbished weapon using the
         material from the four tests. The three remaining tests have
         been rescheduled and will be completed after the FPU date.

                                  Schedule

         About 30 percent (3 of 10) of the completed key milestones
         and about 20 percent (52 of 253) of the supporting
         activities were delayed. For example, the key milestone
         that allowed management to authorize funding to initiate
         production activities, such as testing and qualification of
         tooling and equipment, occurred five months later than
         planned due to delays in predecessor activities. As a result
         of this delay, only nineteen months are now allotted to
         complete these activities which Department of Energy
         (Department) guidance estimates could take as long as
         three years. We concluded that NNSA is at risk of not
         completing these milestone activities as scheduled since the
         duration of prior project activities have been close to or
         exceeded Department estimates.

         A number of the activities that support key milestones have
         also been delayed. For example, the planned date to begin
         overall system testing and analysis activities at Sandia
         National Laboratories has been delayed by over a year.
         The delays in key milestones and supporting activities such
         as those described above could have a cascading effect on
         the completion of subsequent milestones, including
         delaying the FPU and increasing project costs.



Page 2                                            Details of Finding
         Management acknowledged that schedule delays had
         occurred and believed that decisions regarding changes
         were made using established processes, including formal
         risk assessments. When high risks were identified,
         mitigation plans were executed and tracked to closure for
         the delayed activities until they were completed. However,
         due to the lack of documented mitigation strategies and
         contingency plans, we could not confirm how NNSA
         resolved certain high risk issues.

                                      Cost

         The audited sites could not reconcile cost variances
         between reported costs and project documentation. This is
         significant since, according to Department guidance,
         controlling cost is an essential element in baseline stability
         and project managers are responsible for successfully
         managing project baseline costs. We noted that the W76
         project plan provided a work breakdown structure for
         reporting project costs and required that sites capture costs
         consistent with the high level elements. Additionally,
         NNSA required the sites to provide a crosswalk to explain
         deviations from the suggested structure. These costs are
         included in an annual Selected Acquisition Report to
         Congress, which is the W76 project's cost baseline.

         During the audit, we found that three of the four sites
         visited could not reconcile to the project costs reported to
         Congress nor explain the variances, which ranged from
         about $200,000 to over $2,000,000. When we attempted to
         validate and reconcile project costs to reported costs, we
         discovered that the individual sites' structures were not
         consistent with the overall project's basic cost work
         breakdown structure, as required. Additionally, one site
         lacked the required crosswalk. The inability to validate
         project costs raises concerns about the accuracy of the
         information reported to Congress and whether the project
         will be completed within the cost parameters contained in
         the project plan.

         In addition, we noted that the change control process was
         not fully utilized. According to Department Manual 413.3,
         Project Management for Acquisition of Capital Assets,
         performance baseline changes require approval for all
         Department projects, including NNSA, whose costs have
         increased in excess of $25 million or 25 percent cumulative



Page 3                                             Details of Finding
                     of the original cost baseline. As of December 2004, we
                     found a cumulative cost increase to the total project cost
                     baseline through Fiscal Year (FY) 2022 of approximately
                     $639 million (28 percent). However, available baseline
                     change request documentation only supported $84 million
                     of that amount. According to an NNSA official, efficient
                     verbal communication made change control process
                     documentation less necessary.

Project Management   We determined that some deviations and delays occurred
                     due to circumstances outside NNSA's control, such as the
                     temporary Classified Removable Electronic Media stand-
                     down and the delay of the first flight test. Accordingly, we
                     excluded scope and schedule issues related to those events
                     from our report. Rather, the report addresses issues that we
                     concluded were caused by weaknesses in project
                     management. Specifically, we noted a lack of timeliness in
                     project planning; ineffective control over project schedule
                     and costs; and, a lack of risk mitigation plan
                     documentation.

                     Project planning documentation was not completed in a
                     timely manner. Although the W76 project began in
                     October 1998, the project plan, which provides direction
                     for the refurbishment scope, schedule, and cost, was not
                     issued until February 2004 – five years later. Similarly, the
                     weapon certification plan, which established
                     hydrodynamic, intermediate, and small-scale testing
                     requirements, was not finalized for three years. The delay
                     in establishing these testing requirements reduced the time
                     available to perform hydrotests, which in turn, delayed
                     other types of testing since the same personnel are utilized
                     for multiple testing activities. However, rather than delay
                     key milestones, which could affect the FPU delivery date,
                     project officials chose to adjust the scope of refurbishment
                     activities.

                     The delay in finalizing planning documents and
                     establishing testing requirements also impacted timely
                     completion of other scheduled milestones. For example, a
                     project official advised that a key milestone, which
                     authorized funding to initiate production activities such as
                     testing and qualification of tooling and equipment, occurred
                     five months later than planned because certain prerequisite
                     activities, such as hydrotesting, had not been completed.
                     According to the project manager, the W76 project plan



Page 4                                                        Details of Finding
         was held pending release of NNSA's guidance (guidance)
         on weapon refurbishment projects. However, we noted that
         the guidance was available in January 2003. NNSA
         officials agreed that the project plan should not have taken
         so long to complete.

         The risk of schedule delays was increased because NNSA
         did not ensure that the site schedules were consistent with
         its W76 project master schedule and had been integrated.
         For example, we found that the master schedule included a
         task to install and reaccept certain refurbishment equipment
         at the Pantex Plant (Pantex); however, that task did not
         exist on Pantex's site schedule. During the audit, we noted
         that Pantex's project documentation showed that the task
         should be deleted from the master schedule. NNSA
         recognized the problem and is taking actions to strengthen
         the schedule maintenance process. In addition to the W76
         refurbishment, other Office of Inspector General reports
         noted that inconsistencies among site schedules and master
         schedules also contributed to schedule delays in the W80
         and B61 refurbishment projects. (See Appendix 2).

         Project officials also did not maintain effective control over
         project costs. Specifically, NNSA had not validated project
         costs and did not ensure that sites met requirements for cost
         reporting consistent with the project's work breakdown
         structure. Project officials acknowledged that they have
         had limited success in validating costs but believed the
         sites' inability to reconcile the cost information contained in
         the annual Selected Acquisition Reports to Congress was
         attributed to accounting and funding changes, such as the
         reassignment of funds and adjustments for inflation.
         However, we believe that failure to ensure consistent
         reporting among sites was the significant contributing
         factor.

         Furthermore, project management did not maintain
         effective control over baseline changes. Although
         Department guidance requires that modifications be
         managed through a traceable, documented process that is
         defined in the project plan, the W76 project plan did not
         require the approval of cumulative cost increases through
         baseline changes. Since cost documentation is key to
         controlling project costs, NNSA officials should have




Page 5                                             Details of Finding
                    ensured that the project plan included all relevant cost
                    reporting requirements and that sites adhered to those
                    requirements.

                    Although project officials maintained a risk management
                    database to analyze scope and schedule changes, they did
                    not always document a mitigation strategy and contingency
                    plan. For example, the activities associated with the FDR
                    were identified as a high risk in the database; however, no
                    mitigation strategy or contingency plan information was
                    included to address how unexpected issues would be
                    resolved. During the audit, we noted that a more
                    interactive risk management system was being
                    implemented. This should improve the management of
                    scope and schedule changes.

National Security   Failure to complete the W76 refurbishment FPU within the
Implications        established schedule and scope could have a direct effect
                    on full-scale production decisions and processes; impact
                    NNSA's ability to manage project costs; and, affect the
                    goals and objectives of the refurbishment effort. For
                    example, if the tests that have been delayed produce
                    unexpected results when eventually performed, there is an
                    increased risk that established production processes may
                    have to be modified.


RECOMMENDATIONS     We recommend that the Administrator, NNSA:

                       1. Strengthen W76 project management by ensuring
                          that:

                               •   Future planning documentation is prepared
                                   in a timely manner;

                               •   Reported project schedule and cost
                                   information are validated and, if necessary,
                                   make appropriate adjustments;

                               •   Sites comply with the project work
                                   breakdown structure;

                               •   The change control process is fully utilized;
                                   and,



Page 6                                                      Recommendations
                              •   Risk management tools document the
                                  mitigation strategy and contingency plan to
                                  address all scope and schedule changes.

                      2. Ensure future Life Extension Programs implement
                         the project management principles of timely
                         comprehensive project planning; consistent cost and
                         schedule reporting; and, adequate change control
                         policies.


MANAGEMENT         Management agreed with the recommendations but
REACTION AND       believed that the appropriate tools and key processes were
AUDITOR COMMENTS   in place to ensure successful execution of the W76
                   refurbishment and that the delays would have no significant
                   impact on full-scale production. Management provided
                   technical comments which have been incorporated within
                   the body of the report, where appropriate. Management's
                   overall comments are summarized below and are included
                   in their entirety in Appendix 3.

                   We consider management's comments to be responsive to
                   our recommendations. However, until management
                   effectively utilizes all available project management tools
                   for the effort, there will be an increased risk that the FPU
                   may not be achieved within the baseline parameters
                   established in the project plan.

                                     Management Comment

                   NNSA acknowledged that there have been some scope
                   changes and schedule delays, the majority of which were a
                   result of events outside of its control, and stated that the
                   project team evaluated impacts to the program and
                   proposed a recovery plan of action.

                                        Auditor Comment

                   We recognize that several events that delayed the project
                   were outside management's control. Therefore, scope and
                   schedule issues related to those events were excluded from
                   the review. Rather, the report addresses those scope
                   reductions and schedule delays that were attributable to
                   weaknesses in project management. For example,



Page 7                                   Recommendations and Comments
         preliminary documentation showed that a number of
         hydrotests were to be conducted by October 2003, which
         was nine months before the stand-down at the Los Alamos
         National Laboratory. However, none of the tests were
         performed by that date. In our view, the delay in
         establishing hydrotest requirements reduced the time
         available to perform these tests.

                           Management Comment

         NNSA reported that it had a valid cost baseline even
         though it recognized that the information needed to be
         validated due to limited success in this area. Further,
         management stated that it had briefed the appropriate
         parties regarding baseline changes but conceded that some
         changes were not formally documented. Finally, although
         the W76 project plan references Department Order 413.3,
         Project Management for Acquisition of Capital Assets,
         NNSA does not believe the guidance is applicable to
         weapon systems.

                              Auditor Comment

         We agree that NNSA has an overall cost baseline for the
         W76 refurbishment. However, the participating sites'
         inability to reconcile to the costs included in the baseline
         raises concerns about the accuracy of the information and
         whether the project will be completed within the cost
         parameters contained in the project plan. Regarding
         baseline change control, we agree that verbal
         communication is important. However, we believe that the
         sound project management principles contained in
         Department Order 413.3, Project Management for
         Acquisition of Capital Assets, are applicable to the W76
         refurbishment since it meets the guidance's definition of a
         "project." Furthermore, management acknowledged that
         Department Order 413.3 was used to guide the
         implementation of its W76 project plan, and it is listed as
         one of the plan's reference documents.




Page 8                                                   Comments
Appendix 1


OBJECTIVE     To determine whether the W76 refurbishment will deliver
              the first production unit within the scope, schedule, and
              cost parameters established in the project plan.


SCOPE         We performed the audit from January 11, 2005, to
              March 7, 2006, at NNSA Headquarters; the NNSA Service
              Center; Los Alamos National Laboratory; Sandia National
              Laboratories; Pantex Plant; and, Y-12 National Security
              Complex. The scope of the audit was limited to W76
              refurbishment activities conducted from October 1998
              (project start) and planned through September 30, 2007,
              (the first production unit), with the exception of cost
              parameters which were analyzed through FY 2022.


METHODOLOGY   To accomplish the audit objective, we:

                 •   Identified the W76 LEP technical scope, scheduled
                     milestones, and cost;

                 •   Analyzed the status of the project and the
                     contractors' performance;

                 •   Discussed W76 refurbishment activities with NNSA
                     and contractor personnel, including visits to four of
                     the six participating sites;

                 •   Reviewed NNSA regulations and contractor
                     procedures governing refurbishment projects; and,

                 •   Reviewed results of prior audits and reviews.

              We conducted the audit according to generally accepted
              Government auditing standards for performance audits and
              included tests of internal controls and compliance with laws
              and regulations to the extent necessary to satisfy the audit
              objective. Because our review was limited, it would not
              necessarily have disclosed all internal control deficiencies
              that may have existed at the time of our audit. The
              computer-processed data used to support the audit had a
              significant impact in determining our schedule and cost




Page 9                            Objective, Scope, and Methodology
Appendix 1 (continued)

                    findings. However, due to inconsistencies in schedule and
                    cost reporting, we were unable to express an opinion on the
                    reliability of the data. Therefore, we recommended that the
                    schedule and cost of the project be validated.

                    Finally, we assessed NNSA's compliance with the
                    Government Performance and Results Act of 1993. We
                    found that the Department established specific performance
                    objectives related to the refurbishment of the W76 weapon
                    system. In particular, we noted that the project had
                    outlined numerous key milestones with measurable
                    deliverables.

                    Management waived an exit conference.




Page 10                                 Objective, Scope, and Methodology
Appendix 2


                                   PRIOR REPORTS


•   The Los Alamos National Laboratory Hydrodynamic Test Program (DOE/IG-0699,
    September 2005). The report evaluated the Hydrodynamic Test (hydrotest) Program
    at the Los Alamos National Laboratory (Los Alamos). The audit concluded that Los
    Alamos did not complete hydrotests as scheduled in support of the National Nuclear
    Security Administration's (NNSA) Stockpile Stewardship Program and may not have
    the capacity to meet future hydrotest needs.

•   The National Nuclear Security Administration's Refurbishment of the B61 (DOE/IG-
    0697, August 2005). The report evaluated the current refurbishment of the B61
    weapon system, Alteration 357. The audit found that NNSA experienced delays that
    were avoidable had the proper internal control structure been in place; that NNSA did
    not have a valid estimate of total refurbishment costs; and, that NNSA did not follow
    established procedures when making scope changes to the refurbishment project. The
    audit concluded that NNSA had not ensured that the individual production schedules
    of participating sites were linked and consistent with its overall integrated master
    schedule.

•   Refurbishment of the W80-Weapon Type (DOE/IG-0590, March 2003). The report
    evaluated the current refurbishment of the W80 weapon system. The audit concluded
    that (1) there were inconsistencies between the NNSA project plan and the sites'
    detailed plans; (2) the project lacked change control or other means to ensure that the
    NNSA manager knew when the sites made changes that could impact cost, scope or
    schedule; and, (3) scheduled peer reviews had been delayed.

•   Nuclear Weapons: Opportunities Exist to Improve the Budgeting, Cost Accounting,
    and Management Associated with the Stockpile Life Extension Program (GAO-03-
    583, July 2003). The report evaluated the accounting and management of stockpile
    life extension programs. The audit found that all associated costs were not included
    with the life extension programs' Fiscal Year 2003 budgets. Also, the Government
    Accountability Office concluded that NNSA did not have an adequate planning,
    organization, cost, and schedule oversight process for refurbishments.




Page 11                                                                     Prior Reports
Appendix 3




Page 12      Management Comments
Appendix 3 (continued)




Page 13                  Management Comments
Appendix 3 (continued)




Page 14                  Management Comments
                                                             IG Report No. DOE/IG-0729

                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form.
